Report No. D-2011-108                 September 19, 2011




  Geothermal Energy Development Project at Naval Air
         Station Fallon, Nevada, Did Not Meet
              Recovery Act Requirements
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
COR                           Contracting Officer’s Representative
FAR                           Federal Acquisition Regulation
GPO                           Geothermal Program Office
NAS                           Naval Air Station
NAVFAC                        Naval Facilities Engineering Command
NAWCWD                        Naval Air Warfare Center Weapons Division
OMB                           Office of Management and Budget
PWD                           Public Works Department
QASP                          Quality Assurance Surveillance Plan
QMD                           Quantitative Methods Division
TPOC                          Technical Point of Contact
                               INSPECTOR GENERAL
                             DE PARTMENT OF DEFENS E
                                 400 ARMY NAVY DR IVE
                           ARLI NGTON , VIRGINIA 22202-4704                   SEP 1,9 2011


MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND SOUTHWEST
               DIRECTOR, NAVY SHORE ENERGY
                 PROGRAM OFFICE
               COMMANDING OFFICER, NAVAL AIR SYSTEMS
                 COMMAND


SUBJECT: Geothermal Energy Development Project at Naval Air Station Fallon,
         Nevada, Did Not Meet Recovery Act Requirements
         (Report No, D-2011-108)

We are providing this report for review and comment. The Geothermal project did not
meet American RecovelY and Reinvestment Act of2009 requirements, Specifically,
Geothermal Program Office personnel did not adequately plan the project; the
Commander, Navy Region Southwest, did not promptly distribute funds ; personnel from
Naval Air Weapons Center Weapons Division, China Lake, could have improved
contract execution; and the Director, Navy Shore Energy Office, did not provide effective
oversight. We considered management comments on a draft of this report when
preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We
received comments from the Acting Assistant Secretary of the Navy (Energy,
Installations & Environment) on behalf of the Director, Navy Shore Energy Office, Naval
Facilities Engineering Command; and the Commander, Naval Air Systems Command,
The Acting Assistant Secretary' s comments to Reconunendation I.a and I.b were
responsive. However, the Acting Assistant Secretary did not conunent on
Recommendations I.c and 2. Therefore, we request the Navy provide additional
comments on Recommendations I.c and 2 by October 19,2011.

If possible, send a .pdf file containing your comments to audros@dod ig.miL Copies of
your comments must have the actual signature of the authorizing official for your
organization, We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the cOUliesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).



                                          ~ ~ , J"""
                                       ~
                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
THIS PAGE INTENTIONALLY LEFT BLANK 

Report No. D-2011-108 (Project No. D2010-D000LH-0170.000)                          September 19, 2011

               Geothermal Energy Development Project at
               Naval Air Station Fallon, Nevada, Did Not
               Meet Recovery Act Requirements
                                                        weakened, and DoD lacks reasonable assurance
What We Did                                             that Recovery Act funds were used
Our overall objective was to evaluate DoD’s             appropriately.
implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of              What We Recommend
2009,” (Recovery Act), February 17, 2009.               We recommend that the Director, Navy Shore
Specifically, we determined whether                     Energy Office, Naval Facilities Engineering
Geothermal Program Office, Naval Facilities             Command, provide detailed oversight to the
Engineering Command, and Naval Air Systems              project in accordance with Recovery Act
Command personnel appropriately used                    requirements, and establish an estimated
Recovery Act funds to plan, fund, and initially         timeline to complete the Geothermal project.
execute the Geothermal Energy Development               Additionally, we recommend that the
project (Geothermal project) at Naval Air               Commander, Naval Air Systems Command,
Station Fallon, Nevada. The Department of the           require the Naval Air Warfare Center Weapons
Navy allocated approximately $9.12 million in           Division, China Lake, procuring contracting
Recovery Act funds to the Geothermal project.           officer to designate a contracting officer’s
                                                        representative and develop a Quality Assurance
What We Found                                           Surveillance Plan to monitor contractor progress
The Geothermal project did not meet Recovery            and performance.
Act requirements. Geothermal Program Office
and Naval Air Station Fallon Public Works               Management Comments and
Department personnel did not adequately plan            Our Response
the project. Specifically, they did not fully           The Acting Assistant Secretary of the Navy
complete the DD Form 1391, and the                      (Energy, Installations & Environment),
Geothermal Program Office did not have a                responded on behalf of the Director, Navy Shore
comprehensive plan in place to substantiate its         Energy Office, Naval Facilities Engineering
three-phase approach to geothermal exploration.         Command, and the Commander, Naval Air
In addition, the Commander, Navy Region                 Systems Command, to a draft of this report
Southwest, did not promptly distribute about            issued on August 4, 2011. The Acting Assistant
$1.2 million in Recovery Act funds, and                 Secretary’s comments to Recommendation 1.a
contracting personnel at Naval Air Warfare              and 1.b were responsive. However, the Acting
Center Weapons Division, China Lake could               Assistant Secretary did not comment on
have improved contract execution. Lastly, the           Recommendations 1.c and 2. We request that
Director, Navy Shore Energy Office, did not             the Navy provide additional comments by
provide effective oversight of the Geothermal           October 19, 2011. Please see the
project. As a result, the Geothermal Program            recommendations table on the back of this page.
Office’s efforts to reduce exploration risks were



                                                    i
Report No. D-2011-108 (Project No. D2010-D000LH-0170.000)              September 19, 2011

Recommendations Table

        Management                    Recommendations        No Additional Comments
                                     Requiring Comment             Required
Commander, Naval Air Systems   2
Command
Director, Navy Shore Energy    1.c                          1.a, 1.b
Office, Naval Facilities
Engineering Command

Please provide comments by October 19, 2011.




                                           ii
Table of Contents

Introduction	                                                     1


      Objective                                                   1

      Background                                                  1     

      Review of Internal Controls                                 3


Finding. The Geothermal Project Did Not Meet Recovery 

Act Requirements                                                  4


      Project Not Adequately Planned                              4

      Recovery Act Funds Not Promptly Distributed                 7

      Contract Execution Could Have Been Improved                 7

      NAVFAC Headquarters Oversight Was Ineffective               9

      Conclusion                                                 10     

      Management Comments on the Finding and Our Response        10 

      Recommendations, Management Comments, and Our Response     11 


Appendices

      A. 	Scope and Methodology                                  13 

             Use of Computer-Processed Data                      14 

             Use of Technical Assistance                         14 

             Prior Audit Coverage                                14 

      B. Map of Exploration Area at Naval Air Station Fallon 	   15 


Management Comments

      Department of the Navy 	                                   16 

THIS PAGE INTENTIONALLY LEFT BLANK 

Introduction
Objective
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” (Recovery Act), February 17,
2009. Specifically, we determined whether personnel at the Geothermal Program Office
(GPO), Naval Facilities Engineering Command (NAVFAC), and Naval Air Systems
Command appropriately used Recovery Act funds to adequately plan, fund, and initially
execute Project RM-09-1441, Geothermal Energy Development (Geothermal project) at
Naval Air Station (NAS) Fallon, Nevada. See Appendix A for a discussion of our scope
and methodology.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments needed to increase economic efficiency by spurring technological
advances in science and health; and invest in transportation, environmental protection,
and other infrastructure. The Recovery Act also established unprecedented efforts to
ensure the responsible distribution of funds for its purposes and to provide transparency
and accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent.

DoD received approximately $7.16 billion1 in Recovery Act funds for projects that
support the Act’s purposes. In March 2009, DoD released expenditure plans for the
Recovery Act, which lists DoD projects that receive Recovery Act funds. The
Department of the Navy received $1.17 billion in Recovery Act funds for Operations and
Maintenance; Military Construction; and Research, Development, Test, and Evaluation.
Of the $1.17 billion appropriated, the Department of the Navy allocated approximately
$9.12 million (Operations & Maintenance) to support geothermal energy development at
NAS Fallon, Nevada.

Recovery Act Requirements
On April 3, 2009, the Office of Management and Budget (OMB) issued
Memorandum M-09-15, “Updated Implementing Guidance for the American Recovery
and Reinvestment Act of 2009,” to provide Government-wide guidance and requirements
for the implementation of the Recovery Act. The guidance and requirements are intended
to meet accountability goals: (1) funds are awarded and distributed in a prompt, fair, and
reasonable manner; (2) the recipients and uses of all funds are transparent to the public,
and the public benefits of these funds are reported clearly, accurately, and in a timely


1
 DoD originally received $7.4 billion; however, Public Law 111-226, Title III, “Rescissions,” rescinded
$260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for U.S. Army Corps of
Engineers civil works projects.

                                                   1

manner; (3) funds are used for authorized purposes and potential for fraud, waste, error,
and abuse are mitigated; (4) projects funded under the Recovery Act avoid unnecessary
delays and cost overruns; and (5) program goals are achieved, including specific program
outcomes and improved results on broader economic indicators.

Geothermal Program Office
The GPO is a NAVFAC Component and is located at Naval Air Weapons Station China
Lake, California. GPO personnel are responsible for managing and developing
geothermal resources on all military lands throughout the world. The Navy Shore Energy
Office located at NAVFAC Headquarters provides oversight to GPO. On
March 10, 2009, NAS Fallon Public Works Department (PWD)2 personnel developed a
DD Form 1391 for geothermal energy development at NAS Fallon, Nevada.3

Geothermal Energy Development
Geothermal energy development involves drilling wells to capture geothermal resources
and bring those resources to the surface as hot water or steam to drive turbines that
generate electricity. The process begins with exploration to identify a likely source of
geothermal energy. To be considered a successful prospect for development, a
geothermal resource must possess three qualities: heat, fluids, and permeability.
Although experts can use research to identify an area likely to contain a geothermal
resource, they must drill in that area to confirm that a viable resource exists. Drilling is
both costly and a challenge because if the well is not positioned within a precise vicinity
of the targeted resource, drilling results in a dry hole.

To reduce the risks associated with exploration, GPO personnel intended to implement a
three-phase approach for the Geothermal project consisting of research, shallow-hole
drilling, and deep-hole drilling. At the end of each phase, GPO planned to assess the
results and determine whether to move forward to the next phase.

    	 Phase 1: Research – Involves reviewing evidence from literature and fieldwork
       to identify a likely geothermal resource. Planners use the information to identify
       specific areas to drill that present the greatest potential for a geothermal resource.
       Typically, the research phase can take about 12 months to complete.

    	 Phase 2: Shallow-Hole Drilling – Performed once research confirms that a
       potential geothermal resource may exist. Shallow-hole drilling involves drilling
       up to 500 feet deep and collecting temperature gradient measurements. This
       process takes approximately 4 to 5 days to drill each hole and an additional 1 to
       3 months for the sites to achieve temperature equilibration.4




2
  NAS Fallon PWD provides planning support to GPO for all projects at NAS Fallon. 

3
  Consists of approximately 243,000 acres.

4
  Occurs when, over time, the well and surrounding reservoir becomes the same temperature.


                                                    2

       	 Phase 3: Deep-Hole Drilling5 – GPO personnel will initiate deep-hole drilling to
          further identify geological and physical conditions. Deep holes can reach depths
          of 1,500 to 5,000 feet. This process takes approximately 45 to 90 days for drilling
          and an additional 1 to 3 months for the sites to achieve temperature equilibration.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We identified internal control
weaknesses regarding inadequate project planning and inadequate contract oversight.
Specifically, the DD Form 1391 was incomplete; GPO personnel lacked a comprehensive
plan for implementing the three-phase exploration approach; Naval Air Warfare Center
Weapons Division (NAWCWD), China Lake contracting personnel lacked a plan for
contract oversight; and drilling contracts omitted a Federal Acquisition Regulation (FAR)
clause. Further, the Director, Navy Shore Energy Office, did not provide effective
oversight. We will provide a copy of the report to the senior official(s) responsible for
internal controls at NAVFAC headquarters and Naval Air Systems Command
headquarters.




5
    Includes intermediate-hole drilling.

                                               3

Finding. The Geothermal Project Did Not
Meet Recovery Act Requirements
The Geothermal project did not meet Recovery Act requirements. Specifically,

    	 GPO and NAS Fallon PWD personnel did not adequately plan the project to
       support the need for drilling at the sites selected;

    	 Commander, Navy Region Southwest, did not promptly distribute approximately
       $1.2 million in Recovery Act funds for the research phase;

    	 NAWCWD, China Lake, awarded drilling contracts prematurely and could have
       improved contract oversight; and

    	 Director, Navy Shore Energy Office, did not provide effective oversight of the
       Geothermal project.

As a result, DoD lacks reasonable assurance that exploration risks were mitigated and
Recovery Act funds were used appropriately.

Project Not Adequately Planned
GPO and NAS Fallon PWD planning for the Geothermal project was inadequate.
According to OMB Memorandum M-09-15, heightened management attention to
acquisition planning is required to mitigate project risks relating to schedule, cost, and
performance. In addition, Naval Operations Instruction 11010.20G, “Facilities Projects
Instruction,” October 14, 2005, requires special projects to have documentation that
provides a clear methodology for addressing all aspects of requirements, including
operational, technical, financial, legal, environmental, and social aspects. The
DD Form 1391 is the primary format of project documentation. It provides a record of
actions taken to address each requirement and how those actions were funded. PWD
personnel did not fully complete the DD Form 1391, and GPO personnel did not have a
comprehensive plan in place to substantiate its three-phase approach to geothermal
exploration.

Incomplete DD Form 1391
NAS Fallon PWD personnel did not fully complete the DD Form 1391. On this form, 

personnel identified six sites where exploration work would occur.6 See 

Appendix B for a map of these sites. 





6
Sites include Dixie Valley, Fallon NAS (Mainside) and four bombing ranges (B-16, B-17, B-19, and
B-20).

                                                  4

The DD Form 1391 described the exploration process7 as:

        using a Broad Agency Announcement,8 valued at $1.2 million, to support the
         research phase; 

        drilling 20 shallow holes, valued at $1.2 million; and 

        drilling three intermediate/deep holes, valued at $5.6 million. 


However, the DD Form 1391 lacked a clear methodology for addressing the geothermal
exploration process. Specifically, the DD Form 1391 did not:

        describe all aspects of the project’s requirements (for example, the scope of the
         project);
        address the exploration process and current status at each site; and
        cite source documents that supported the need to conduct exploration at each site.

Additionally, the DD Form 1391 provided no timeline for project completion, although
DoD expenditure plans showed that the project would take approximately 6 months to
complete (June to December 2010). GPO personnel stated that completion of the project
could take 21 to 30 months because the research phase alone could take about
12 months.9

GPO Needs a Plan for Identifying Geothermal Resources
GPO personnel did not provide planning documents that fully justify the Geothermal
project. GPO personnel lacked a comprehensive plan for implementing the three-phase
exploration approach that would both support the DD Form 1391 and ensure a high
probability of identifying a geothermal resource.

       However, the source            GPO had an extensive library of source documents
    documents provided to us by       addressing geothermal energy throughout the world.
      GPO personnel did not           However, the source documents provided to us by
        support the project           GPO personnel did not support the project
          requirements.               requirements. Specifically, the documents did not
                                      support the high potential for geothermal resources at
each of the six sites selected for exploration. GPO personnel stated the sites were
selected based on technical papers, literature, and fieldwork completed over the last
40 years. Table 1 summarizes the conclusions from technical papers written in the 1980s.


7
  About $1.1 million of contingency, supervision, and administration expenses budgeted for managing the
project are included in the total project cost of $9.12 million but not identified in the requirements listed in
this report.
8
  A Broad Agency Announcement is a general announcement of an agency’s research interest, including
criteria for selecting proposals and soliciting the participation of all offerors capable of satisfying the
Government’s needs.
9
  GPO personnel stated that, as of July 29, 2011, they had completed work on the three phases (research,
shallow-hole drilling, deep-hole drilling) at sites B-16 and B-17, had terminated work at site B-20, and
were still working at sites B-19 and Dixie Valley.

                                                       5

                   Table 1. Summary of Technical Papers—Geothermal 

                               Potential at Fallon, Nevada


                            Sites               Geothermal Resource Potential
                          B-16                               Possible10
                          B-17                                  Low
                          B-19                                Probable
                          B-20                              Inconclusive
                       Dixie Valley                             High
                       NAS Fallon*                              High
                 *Also referred to as “Main Site” or “Mainside.”

GPO personnel stated they were confident that the geothermal potential was high at each
of the sites. However, as Table 1 shows, the technical papers identified only two of the
six sites as having “high” geothermal resource potential. For the remaining four sites, the
technical papers did not support GPO’s position that the potential for geothermal
resources in the entire Fallon, Nevada, region was high.

GPO personnel provided the “Geothermal Energy Resource Assessment on Military
Lands,” October 2003, which they stated supported their selection of the six sites.
However, the assessment addressed only two of the six sites and drew conclusions similar
to those in the technical papers. Specifically, the assessment concluded that an
unexploited resource is located along the southern margin of the NAS Fallon Main Site,
and Dixie Valley has a high potential for utility grade geothermal resources. The
assessment recommended additional mapping, surveys, and studies in those areas to
determine the potential for high temperature resources and identify possible drilling
targets.

We do not doubt GPO’s assertion that information supporting exploration at the sites
exists. However, because of the volume of source documentation available to GPO and
the vast area covered by the six sites, personnel should have consolidated prior
assessments and conclusions into a comprehensive plan. The plan should have
summarized conclusions drawn from work previously performed at each site,
demonstrated the potential for a geothermal resource at each site, and prioritized sites for
exploration given a lower or inconclusive potential for geothermal energy. The plan
would have served as supporting documentation to justify the project, and therefore,
provide reasonable assurance that Recovery Act funds are being used appropriately.
Because the Geothermal project is beyond the planning phase, we are not making any
recommendations concerning the need to develop a comprehensive plan.




10
  A 1982 technical publication concluded that B-16 had “better than average” resource potential; however,
a 1987 technical publication stated that B-16 had “marginal” potential.

                                                    6

Recovery Act Funds Not Promptly Distributed
In March 2009, Commander, Naval Installations Command, allocated $9.12 million in
Recovery Act funds to the Commander, Navy Region Southwest. However,
Commander, Navy Region Southwest, did not promptly distribute $1.2 million of the
$9.12 million in Recovery Act funds to the Geothermal project. Table 2 summarizes the
Commander, Navy Region Southwest’s distribution of the Recovery Act funds for the
Geothermal project. 
 
     Table 2. Summary of Commander, Navy Region Southwest’s Distribution of 

                 Recovery Act Funds for the Geothermal Project 


                Funds                                    Date                    Purpose
              Transferred            Amount             Funds                       of
                  To                (millions)        Transferred                 Funds
               NAWCWD                                                          Shallow-hole
               China Lake               $1.4           12/29/2009                Drilling
               NAWCWD                                                       Intermediate/deep-
               China Lake               $6.0            4/6/2010               hole Drilling

               NAVFAC1                 $1.2             5/21/2010                 Research
                 Total                 $8.62
        1
            NAVFAC Expeditionary Logistics Center, Port Hueneme, California. 

        2
            Approximately $520,000 is still available for the existing contracts for the Geothermal project. 


The Commander, Navy Region Southwest, transferred approximately $1.2 million to
NAVFAC Expeditionary Logistics Center in support of research on May 21, 2010.
Specialty Center Acquisition NAVFAC11 awarded a technical validation contract on
July 27, 2010; 16 months after Navy Region Southwest received the funds. According to
GPO personnel, the Navy Region Southwest’s delay in transferring the funds was caused
in part by NAVFAC headquarters personnel wanting to ensure the correct type of
contract was awarded. The delay in distributing the funds impacted the first phase
(research) in the GPO’s exploration approach, delaying the project by at least 7 months.

Contract Execution Could Have Been Improved
NAWCWD China Lake contracting personnel awarded drilling contracts for Phases II
and III before Phase I (the research phase) had begun and before making the decision to
go forward with the project. In addition, contracting personnel did not appoint a
contracting officer’s representative (COR), lacked a Quality Assurance Surveillance Plan
(QASP), and omitted a Recovery Act FAR clause.




11
  Specialty Center Acquisition NAVFAC, located in Port Hueneme, California, provides procurement
services for NAVFAC Expeditionary Logistics Center.

                                                       7

Drilling Contracts Awarded Early
NAWCWD China Lake contracting personnel awarded the contracts for shallow-hole and
deep-hole drilling before the GPO initiated its research phase. On December 31, 2009,
the NAWCWD China Lake procuring
contracting officer awarded contract                     At the time of those contract
N68936-10-D-0001 (delivery order 0002) in                 awards, GPO had neither
the amount of $1.4 million for shallow-hole           determined the specific areas that
drilling (a total of 20 holes) and on June 22,         presented the greatest potential
2010, awarded contract N68936-10-D-0021                 for geothermal resources nor
(Delivery Order 0003) in the amount of                 reached a decision that drilling
$5.9 million for deep-hole drilling (a total of         was needed at any of the sites.
3 holes). At the time of those contract awards,
GPO had neither determined the specific areas that presented the greatest potential for
geothermal resources nor reached a decision that drilling was needed at any of the sites.
According to the procuring contracting officer, the drilling contracts were awarded at the
GPO project manager’s direction. Awarding the drilling contracts before the research
phase conclusion is contrary to the project manager’s own three-phase approach,
eliminating the ability to review the results of the research and determine the next course
of action.

Contract Oversight Could Be Improved
Contracting Officer’s Representative. DFARS Procedures, Guidance, and Information
Subpart 201.6, “Contracting Authority and Responsibilities,” requires contracting officers
to designate a properly trained COR to assist in the technical monitoring or
administration of a contract when contracting for services. A COR must be a
Government employee, designated in writing. DFARS Subpart 201.602-2,
“Responsibilities,” requires that the written designation specify the extent of the authority
to act on behalf of the contracting officer, identify the limitations on the COR authority,
specify the period covered by the designation, state that the authority cannot be
delegated, and state that the COR may be held personally liable for unauthorized acts.

The procuring contracting officer stated the drilling contracts were for supplies and not
services; therefore, she did not designate a COR. Instead, the procuring contracting
officer designated a technical point of contact (TPOC) to provide oversight of the drilling
contracts without writing a designation letter or ensuring that the TPOC was properly
trained. According to the drilling contracts, the TPOC will provide “technical direction
and discussion, as relating, but not limited to the specification and/or statement of work,
and will monitor the progress and quality of contractor performance.” The procuring
contracting officer should have assigned a COR with the appropriate duties and
responsibilities when the contract was awarded. Without someone to perform the duties
of a COR, the Government has no guarantee that the progress and quality of contractor
performance is properly monitored.

Quality Assurance Surveillance Plan. FAR Subpart 46.4, “Government Contract
Quality Assurance,” states the Government should conduct contract quality assurance at
times and places necessary to determine that the supplies or services conform to contract

                                             8

requirements. The QASP allows the Government to determine whether supplies and
services provided by the contractor conform to contract requirements. The QASP
identifies all of the work requiring surveillance and designates how the surveillance will
be performed. In addition, OMB Memorandum M-09-15 states that agencies must
provide appropriate oversight of contracts to ensure outcomes consistent with and
measurable against agency plans and goals under the Recovery Act. Specifically,
agencies should actively monitor contracts to ensure that goals for performance, cost, and
schedule are met by establishing, implementing, and documenting contractor
performance evaluations.

The procuring contracting officer did not prepare a QASP for monitoring contractor
progress and performance. According to the contracting officer, contractor performance
would be monitored by collecting the contractor’s daily reports and by the TPOC
conducting daily site visits. However, without a QASP describing what the TPOC must
do to monitor the contractors’ progress and performance, the Government does not have
reasonable assurance that the person responsible for surveillance is aware of his or her
responsibilities and is carrying out necessary surveillance. Therefore, the NAWCWD
China Lake procuring contracting officer should provide the TPOC with an appropriate,
detailed QASP for monitoring the progress and performance of contractors to ensure
outcomes are consistent with the contracts’ statements of work.

FAR Clauses
Initially, NAWCWD China Lake contracting personnel omitted a FAR clause required by
Recovery Act guidance in the contract for shallow-hole drilling. The missing clause was
FAR 52.203-15 – “Whistleblower Protection Under the ARRA of 2009.” OMB
Memorandum M-09-15 states agencies are required to include specific FAR clauses in
contracts funded in whole or in part by Recovery Act funds. After we informed
NAWCWD China Lake contracting personnel of the missing FAR clause, they modified
the contract to include the clause.

NAVFAC Headquarters Oversight Was Ineffective
The Director, Navy Shore Energy Office, did not provide effective oversight to the
Geothermal project. The Navy Shore Energy Office, located at NAVFAC headquarters,
is the budget-submitting office for geothermal energy funds and was responsible for
providing oversight to the GPO. The Recovery Act and OMB Memorandum M-09-15
require projects to be monitored and reviewed. OMB guidance also calls for Recovery
Act projects to avoid unnecessary delays; for program goals to be achieved; and for the
public benefits of these funds to be reported clearly, accurately, and in a timely manner.

Based on the project deficiencies, the Director, Navy Shore Energy Office, neither
provided the necessary oversight required by the Recovery Act, nor followed OMB
guidance and requirements for meeting the Recovery Act accountability goals. Navy
Shore Energy Office personnel informed us that their office was responsible for ensuring
the Recovery Act projects were adequately planned and executed, although their
involvement in the Geothermal project focused on ensuring the contracts were
appropriate. The Director, Navy Shore Energy Office, stated that because of the project’s

                                             9

technical aspects, with which he was unfamiliar, as well as the technical expertise of
GPO personnel, he allowed GPO to manage the project on their own.

Despite the Director’s lack of familiarity with geothermal exploration, his oversight was
needed to ensure the complete implementation of Recovery Act requirements. The
Director should take steps to ensure GPO fully implements Recovery Act requirements.

Conclusion
The Geothermal project at NAS Fallon was inadequately planned, funds to support the
research were not distributed in a timely manner, and contract execution was not always
sufficient. GPO personnel should have developed a comprehensive exploration plan to
support its three-phase site exploration approach. Without a comprehensive exploration
plan, the Government lacked assurance that the risks associated with geothermal
exploration were mitigated and that the GPO would use Recovery Act funds in an
effective, economical, and timely manner. Further, NAWCWD China Lake contracting
personnel did not designate a COR or establish a QASP. Overall, the Director, Navy
Shore Energy, provided ineffective oversight to the Geothermal project to ensure the
meeting of Recovery Act goals. As a result, the internal control weaknesses identified in
this report weaken GPO’s efforts to mitigate the risk of drilling dry holes and provide
little assurance that GPO appropriately used Recovery Act funds.

Management Comments on the Finding and Our
Response
Management Comments on Drilling Contracts Awarded Early
The Acting Assistant Secretary of the Navy (Energy, Installations & Environment)
(Acting Assistant Secretary), provided comments on behalf of the Director, Navy Shore
Energy Office, Naval Facilities Engineering Command; and the Commander, Naval Air
Systems Command. The Acting Assistant Secretary disagreed with the finding pertaining
to the contract being awarded prematurely. He stated that the objective in awarding the
contract was to locate developable resources of geothermal activity.

Our Response
We believe that awarding the shallow-hole and deep-hole drilling contracts up to seven
months before awarding the research contract is not consistent with the Geothermal
Project Manager’s three-phase exploration approach, which was used to reduce the risks
associated with exploration. Further, awarding the drilling contracts before determining
the potential for geothermal resources increases the risk of inappropriately using
Recovery Act funds.

Management Comments on Contract Oversight
The Acting Assistant Secretary disagreed that effective contract oversight was not
provided. He stated that the contract deliverables were confirmed and sufficient contract
oversight was provided.


                                            10 

Our Response
Although the Acting Assistant Secretary stated that contract oversight was provided, the
contracting officer did not have a QASP, which identifies the work requiring surveillance
and how the surveillance will be performed. Because contracting officials did not have a
QASP, they were not able to provide evidence that the contract deliverables conform to
contract requirements.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Director, Navy Shore Energy Office, Naval Facilities
Engineering Command:

    a. Provide detailed oversight of Geothermal Program Office efforts to complete
the Geothermal project in accordance with the Recovery Act and subsequent
guidance as they relate to monitoring and reviewing the project and meeting its goal
of accountability.

Department of the Navy Comments
The Acting Assistant Secretary generally agreed with the recommendation to provide
detailed oversight of Geothermal Program Office efforts in accordance with the Recovery
Act requirements. He stated that to further monitor and review the project and ensure
accountability, Naval Facilities Engineering Command created a separate energy office
and designated a Geothermal program director.

Our Response
The Acting Assistant Secretary’s comments were responsive, and no further comments
are required.

   b. Require the Project Manager, Geothermal Program Office to establish a
timeline for project completion. Based on the timeline, the Director should then
determine if the project is still a valid use of Recovery Act funds.

Department of the Navy Comments
The Acting Assistant Secretary generally agreed with the recommendation to establish a
timeline for completion of the Geothermal project and based on the timeline, determine if
the project is still a valid use of Recovery Act funds. He stated that the Naval Facilities
Engineering Command is reviewing the business processes and is developing a timeline
for project completion. Upon completion, a determination will be made on the valid use
of Recovery Act funds and any appropriate corrective actions. Completion of the review
and timeline is scheduled for February 15, 2012.

Our Response
The Acting Assistant Secretary’s comments were responsive, and no further comments
are required.
                                            11 

   c. Review the performance of the officials responsible for awarding the drilling
contracts prior to completing research and for not assigning a contracting officer’s
representative to provide proper oversight. Based on the results, consider any
corrective actions, as appropriate.

Department of the Navy Comments
The Acting Assistant Secretary did not comment on the recommendation. We request the
Navy provide comments in response to the final report.

2. We recommend that the Commander, Naval Air Systems Command, require the
procuring contracting officer at Naval Air Warfare Center Weapons Division China
Lake to designate a COR for contract number N68936-10-D-0001 (Delivery
Order 0002) and contract number N68936-10-D-0021 (Delivery Order 0003) and
develop a Quality Assurance Surveillance Plan for the COR to monitor contractor
progress and performance relating to the shallow-hole and deep-hole drilling
contracts.

Department of the Navy Comments
The Acting Assistant Secretary did not comment on the recommendation. We request the
Navy provide comments in response to the final report.




                                         12 

Appendix A. Scope and Methodology
We conducted this audit from February 2010 through August 2011 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Of the $1.17 billion provided for Navy projects, we focused our efforts on $9.12 million
in operations and maintenance funds appropriated to the Geothermal Energy
Development project at NAS Fallon, Nevada. The project entails conducting initial
research involving reviewing literature and fieldwork to identify a likely geothermal
resource and shallow-hole and deep-hole drilling to identify geological and physical
conditions that define geothermal resource potential.

To review DoD’s implementation of plans for the Recovery Act, we audited the planning,
funding, and initial project execution of the Geothermal Energy Development project at
NAS Fallon, Nevada. Specifically, we determined whether:

      the project was adequately planned to ensure the appropriate use of Recovery Act
       funds (Planning);
      funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
      contracts contained required Recovery Act FAR clauses (Project Execution); and
      the project avoided unnecessary delays and cost overruns (Project Execution).

We obtained and examined Government solicitations and contracts, funding documents,
DD Form 1391s, cost estimates, technical papers, and other assessments. We compared
the documents and information with relevant criteria to determine whether they were
properly prepared, met Recovery Act project planning requirements, and were properly
and promptly funded. We also interviewed appropriate Government personnel from the
GPO, Navy Region Southwest, and NAVFAC headquarters to obtain an understanding of
how projects were validated and selected for Recovery Act funding. We interviewed
GPO and PWD personnel about the planning of the project, and we interviewed
NAWCWD China Lake contracting personnel regarding contract execution.




                                           13 

Use of Computer-Processed Data
We relied on computer-processed data from the Federal Business Opportunities (FBO)
Web site and Federal Procurement Data System – Next Generation. Federal Business
Opportunities is a single, Government-wide point-of-entry for Federal Government
procurement opportunities. The Federal Procurement Data System – Next Generation is
a dynamic, real-time database in which contracting officers can update data to include
new actions, modifications, and corrections. We compared data generated by each
system with the DoD expenditure plans, funding authorization documents, and
contracting documentation to support the audit conclusions. We determined that the data
were sufficiently reliable for the purposes of our audit.

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods Division
(QMD) of the DoD Office of Inspector General analyzed all DoD agency-funded
projects, locations, and contracting oversight organizations to assess the risk of waste,
fraud, and abuse associated with each. QMD personnel selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment and other quantitatively developed risk indicators. QMD
personnel used information collected from all projects to update and improve the risk
assessment model. QMD personnel selected 83 projects with the highest risk rankings;
auditors chose some additional projects at the selected locations.

QMD personnel did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by the United States Army Corps of Engineers.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            14 

Appendix B. Map of Exploration Area at
Naval Air Station Fallon




   Source: Geothermal Program Office, Naval Air Weapons Station, China Lake, California

                                           15 

Department of the Navy Comments





                  Click to add JPEG file




                                 16
